                                    June 29, 1999

                                    RICHARD D. WEIRICH
                                    VICE PRESIDENT, INFORMATION SYSTEMS

                                    SUBJECT: Review of Wireless Communication
                                             Equipment and Services, Management
                                             Advisory Report (DS-MA-99-005)

                                    This management advisory report highlights the
                                    results of our review of wireless communication
                                    equipment and services1 within the United States
                                    Postal Service (USPS) (Project Number
                                    99PC001DS000). Since January 1998, members of
                                    the Office of Inspector General (OIG) staff have been
                                    advising members of your staff on wireless
                                    communication support services. During the course
                                    of this work, we observed potential opportunities for
                                    improved efficiencies in wireless communication
                                    services. Accordingly, we initiated an evaluation of
                                    management controls for USPS wireless
                                    communication equipment and services.

Results in Brief                    Opportunities exist to enhance management controls
                                    over wireless communication equipment and
                                    services. We noted control weaknesses in multiple
                                    contract and provider procurements, administration
                                    and oversight responsibilities, non-official business
                                    use reimbursements, various purchasing and issuing
                                    methods, and accounting for wireless communication
                                    expenses. We suggest that USPS-wide policies and
                                    procedures be developed and disseminated, and
                                    that all wireless communication equipment and
                                    services be coordinated through USPS
                                    telecommunications specialists.

Objective, Scope and                Our objective was to determine whether
Methodology                         management controls for wireless communication
                                    equipment and services were adequate. In



1
    We reviewed wireless communication services for mobile telephones and pagers.
    Review of Wireless Communication                                                      DS-MA-99-005
     Equipment and Services

                                       conducting our review, we visited 13 sites2,
                                       interviewed appropriate personnel3, reviewed USPS
                                       policies4 and service contracts. Our review was
                                       conducted between December 1998 through
                                       February 1999, using the President's Council on
                                       Integrity and Efficiency Quality Standards for
                                       Inspections.

    Background                         Currently, the administration of wireless
                                       communication equipment and services in the USPS
                                       is decentralized. Each postal facility (stations,
                                       branches, processing and distribution installations,
                                       area offices, and district offices) determines its
                                       individual business requirements for wireless
                                       communication. In most cases, telecommunication
                                       specialists, Information Systems Division, are
                                       responsible for contract administration for these
                                       services at district offices.

    Observations	                      Opportunities exist to enhance management controls
                                       over wireless communication equipment and
                                       services. We noted control weaknesses in the
                                       following areas:

                                       •	 Contract and provider procurements.

                                       •	 Administration and oversight responsibilities.

                                       •	 Reimbursements for non-official business use.

                                       •	 Various purchasing and issuing methods.

                                       •	 Accounting for wireless communication
                                          expenses.

                                       While USPS officials at the sites visited developed
                                       local policies and procedures, establishing uniform
                                       corporate-wide policies and procedures will help
                                       ensure that adequate controls are in place to
2
     Cleveland, Ohio; Erie, Pennsylvania; Bellmawr, New Jersey; Edison, New Jersey; Newark, New Jersey;
     Baltimore, Maryland; Hartford, Connecticut; Springfield, Massachusetts; Providence, Rhode Island; Long
     Beach, California; Los Angeles, California; Santa Ana, California; and San Diego, California.
3
     We interviewed USPS Telecommunication Specialists, USPS Finance Managers, other pertinent USPS
     staff, Government Agencies, Federal Wireless Telecommunications Services, and Private Sector
     companies.
4
     USPS policies reviewed included Handbook F-1, Administrative Support Manual, and Management 

     Instructions.

                                                       2
                                            Restricted Information
Review of Wireless Communication                                                            DS-MA-99-005
 Equipment and Services

                                       manage wireless communication equipment and
                                       services.

Contract and Provider                  Services for wireless communication were procured
Procurements                           using multiple contracts and providers without
                                       examining the possibility of leveraging the volume of
                                       business with suppliers. Specifically, there were no
                                       established guidelines for identifying business
                                       requirements nor performing cost benefits or
                                       competitive analyses for wireless communications.
                                       For example, at five sites officials procured identical
                                       services from multiple carriers. Also, officials at
                                       different postal facilities within the same
                                       geographical area maintained individual accounts5
                                       with the same carrier.

                                       However, it should be noted that even though USPS
                                       officials used various methods to select carriers at
                                       the thirteen sites reviewed, in general, they did
                                       obtain the lowest geographical rates6 for wireless
                                       communications in their area. We compared the
                                       vendor contract costs for the sites we visited to the
                                       Federal Wireless Telecommunications Services
                                       contract7 costs for the same geographical area. In
                                       comparison, only two of the contracts reviewed
                                       would have been less expensive using the Federal
                                       Wireless Telecommunications Service contract.
                                       However, using a national or area wide vendor
                                       contract may result in overall lower wireless
                                       communication expenses since duplicative
                                       administrative cost would be eliminated as
                                       experienced in multiple contracts.

Administration and                     Administration and oversight responsibilities were
Oversight                              neither clearly defined nor assigned for managing
Responsibilities                       wireless communication equipment and services.
                                       For example, the USPS Telecommunication
                                       Specialist, Standard Position Description, September
                                       17, 1992, requires Telecommunications Specialists
                                       to oversee and verify the certification of monthly
                                       billings, and prepare analyses and reports for
                                       management review. However, at four of the
5
    These contracts were not included in our review.
6
    This is based upon current contracts and carrier price quotes provided by officials at sites visited.
7
    This federal contract provides wireless communication equipment and services to Federal and other
    government agencies. This contract also eliminates the administrative cost for procuring wireless
    communication services.
                                                       3
                                            Restricted Information
Review of Wireless Communication                                                DS-MA-99-005
 Equipment and Services

                                   thirteen sites reviewed, there was no evidence that
                                   the telecommunications specialists reviewed the
                                   monthly bills.

                                   Additionally, telecommunications specialists at each
                                   site visited did not consistently prepare analyses nor
                                   did they include local and district postal facilities
                                   when analyzing and monitoring costs for equipment
                                   and services in their geographical area. As a result,
                                   the analyses did not provide an accurate cost
                                   representation of all expenses associated with
                                   wireless communication for the entire geographical
                                   area.

                                   Furthermore, limited management oversight or
                                   reviews had been conducted at only three8 of the
                                   thirteen sites we reviewed. Specifically, in January
                                   1997, an Area Finance Manager performed a study
                                   of the three sites to determine costs and number of
                                   devices used. The results of this study and
                                   suggestions for improvement were forwarded to the
                                   Area Vice President; however, none of the
                                   recommendations were implemented.

Non-Official Business              While managers permitted non-official business use
Use Reimbursements                 of mobile telephones, they did not track and monitor
                                   reimbursements made for non-official use. Even
                                   though local policies and procedures for reviewing
                                   mobile telephone bills for non-official use and
                                   reimbursement existed, the policies and procedures
                                   were not consistently enforced at all the sites visited.
                                   For example, at one site visited, the
                                   telecommunications specialist sent out letters
                                   attached to mobile telephone bills to users every
                                   month instructing the users to review the telephone
                                   bills and reimburse for non-official calls. However,
                                   the specialist had no follow-up system in place to
                                   ensure that the bills were reviewed and necessary
                                   reimbursements were made.

Various Purchasing and             USPS officials used various methods to purchase
Issuing Methods                    wireless communication equipment and services.
                                   Some telecommunications specialists made bulk
                                   purchases of equipment with related services using
                                   PS Form 7381, Requisition for Supplies, Services, or
8
    These sites were included in an independent review of the Northeast Area.
                                                  4
                                       Restricted Information
Review of Wireless Communication                                    DS-MA-99-005
 Equipment and Services

                            Equipment. While bulk purchases of wireless
                            communication equipment and services were
                            authorized, issuance to individual users was not
                            usually documented to substantiate approval or
                            justification. We found only one site where individual
                            issuance was justified and approved and the
                            equipment was transferred to the user via a PS Form
                            1590, Supplies and Equipment Receipt.

                            In addition, at eight of thirteen sites a PS Form 7381
                            was used for individual purchases. However, they
                            did not always include complete information. For
                            example, appropriate approval from management
                            was not documented and a non-descriptive rationale
                            (adequate justification) was not provided or was
                            limited. Therefore, we could not determine if
                            individual purchases were authorized or approved.
                            Furthermore, at the remaining sites reviewed, no
                            documentation existed to support wireless
                            communication equipment and service purchase
                            requests.

Accounting for Wireless     USPS has not established a segregated account for
Communication               wireless communication expenses. In our effort to
Expenses                    determine wireless communication expenses, we
                            found that wireless communication expenses were
                            reported in at least five general ledger account
                            numbers:

                            •	 54165 – Building Occupancy
                               (Utilities – Telephone Services)

                            •	 54406 – Equipment Rental Other than Vehicles
                               (Telecommunication Equipment)

                            •	    52109 – Supplies and Expendable Equipment
                                 (Telecommunication Supplies)

                            •	 54411 – Equipment Rental Other than Vehicles
                               (Equipment Rental – Other)

                            •	 52418 – Other Services
                               (Miscellaneous Services)

                            It should be noted that these account numbers were
                            reviewed to extract only those costs from vendors

                                            5
                                 Restricted Information
Review of Wireless Communication                                        DS-MA-99-005
 Equipment and Services

                            providing equipment or services for wireless
                            communication. The table below reflects wireless
                            communication expenses we were able to identify for
                            Fiscal Years (FY) 1996-1998.

                                       General Ledger Account Numbers

                             Account        FY 1996       FY 1997          FY 1998
                               54165        $4,533,384    $ 6,402,467      $ 9,361,910
                               54406           403,223        178,353         319,052
                               52109             93,149        81,754         191,151
                               54411           194,195        296,037         291,158
                               52418           159,099         34,394          45,996
                              TOTAL       $ 5,383,050     $ 6,993,005     $10,209,267

                            As the table illustrates, there was a 30 percent
                            increase in costs from FY 1996 to FY 1997 and a 46
                            percent increase in costs from FY 1997 to FY98.
                            However, this may not include all wireless
                            communication expenses. During our review, we
                            learned the five account numbers listed above were
                            the account numbers most often used; yet, several
                            USPS officials interviewed stated that expenses may
                            be reported in other accounts. By establishing a
                            segregated account number for wireless
                            communication expenses, management will have a
                            means of monitoring costs and information
                            necessary for investment decisions.

Best Practices              During our review, we identified numerous best
                            practices within USPS by which wireless
                            communication equipment and services are
                            managed. Most notable were:

                            •	 Conducting market research studies to select the
                               most feasible and economical plan available in
                               the area;

                            •	 Exploring alternative options based on users’
                               overall requirements and needs (usage or
                               services);

                            •	 Asking current providers to match competitors’
                               rates currently being offered in geographical
                               areas;
                                          6
                               Restricted Information
Review of Wireless Communication                                                DS-MA-99-005
 Equipment and Services

                                  •	 Obtaining geographical or statewide contracts
                                     offering volume discounts and consolidated
                                     telephone accounts and bills;

                                  •	 Taking advantage of bundled equipment package
                                     discounts9;

                                  •	 Having vendors provide usage analysis;

                                  •	 Using one vendor for telephone equipment
                                     allowing batteries and chargers to be
                                     interchangeable with different models;

                                  •	 Documenting issuance, including authorization
                                     and justification, to individual users on PS Forms
                                     1590; and

                                  •	 Requiring users to verify phone bills within a
                                     predetermined time frame or have service
                                     suspended.

Suggestions	                      We suggest the Vice President, Information
                                  Systems:

                                  1.	 Direct the Manager of Wireless Technology to
                                      develop and disseminate USPS corporate
                                      policies and procedures to manage wireless
                                      communication equipment and services. The
                                      policies and procedures should address
                                      management controls to

                                      a)	 Examine the possibility of leveraging the
                                          volume of business with vendors in order to
                                          obtain the most cost-effective rates.

                                      b)	 Designate responsible officials for managing
                                          wireless communication equipment and
                                          services and define the officials’ duties and
                                          responsibilities.

                                      c)	 Develop procedures for tracking and
                                          monitoring reimbursements for non-official
                                          use of mobile telephones.

9
    These packages provide extra accessories (batteries and car charger) and reduced rates for
    quantity equipment purchases.
                                                  7
                                       Restricted Information
Review of Wireless Communication                                   DS-MA-99-005
 Equipment and Services



                               d)	 Develop standard purchasing and issuing
                                   methods for wireless communications
                                   equipment and services to include
                                   documenting approvals and justifications.

                            2.	 Request the Vice President, Finance, Controller
                                establish a segregated account to track and
                                accumulate wireless communication expenses.

Management                  The Vice President of Information Systems agreed
Responses                   with our observations and suggestions. Information
                            Systems managers are currently drafting a
                            management instruction that will address policies
                            and procedures to manage wireless communication
                            equipment and services and developing a national
                            procurement process for cellular services. A
                            separate account number has been established for
                            tracking wireless services. Management's verbatim
                            responses are contained in the Appendix.

Evaluation of               Management's actions planned and taken to
Management                  suggestions 1 and 2 are responsive to our concerns
Responses                   and should enhance the wireless communication
                            process. We will review and comment on the draft
                            management instruction to ensure our concerns
                            have been sufficiently addressed.

                            We appreciated the cooperation and courtesies
                            provided by our staff during the review. If you have
                            any questions, please contact me at (703) 248-2300.


                                 //Signed//
                            Colleen A. McAntee
                            Assistant Inspector General
                             for Performance

                            cc: Alan B. Kiel
                                John R. Gunnels




                                          8
                               Restricted Information
Review of Wireless Communication                        DS-MA-99-005
 Equipment and Services

Major Contributors to this Report:




                                          9
                               Restricted Information
Review of Wireless Communication                        DS-MA-99-005
 Equipment and Services




                                         10

                               Restricted Information
Review of Wireless Communication                                                     DS-MA-99-005
 Equipment and Services


 From:                            LARRY WILLS [LWILLS@email.usps.gov]

 Sent:                            Monday, June 07, 1999 5:11 PM

 To:                              dpettift

 Cc:                              RICHARD WEIRICH; JOHN GOLDEN

 Subject:                         Cellular Plan




         W
      cellul-l.doc


    Debbie

    Attached is the high level plan concerning our efforts to move

    forward with a National contract for wireless services. The first

    three tasks have been completed and we are on track to deliver a

    contract vehicle around the end of the FY.


    We have also secured seperate account numbers to allow the tracking

    of wireless services.


    They are as follows

    Cellular Phone service            54161.000

    Wireless Paging and Data            54162.000

    Combined Voice Pagind and Data Services 54163.000



                                Forward Header

Subject: Cellular Plan

Author: JAMES WHITNER at RANCO09L

Date:6/7/99 11:24 AM



     Here is the orginial

---------------------------- Forwarded with Changes ---------------------------

From: JAMES WHITNER

Date: 6/7/99 11:24AM

To: LARRY K WILLS

Subject: Cellular Plan





                                                                      11
                                                            Restricted Information
Review of Wireless Communication                                   DS-MA-99-005
 Equipment and Services




              Cellular Service Procurement

This purpose of this procurement will be to provide the U.S. Postal Service
with an ordering agreement for Cellular phones, equipment, and services for
postal organizations nationwide. This procurement will be developed to
allow the cellular service providers in the industry to prepare and offer
proposals that address all Postal Service requirements.

From these proposals the top 2-4 proposals will be selected and included in a
Basic Ordering Agreement. As no one vendor presently can supply total
digital service nationwide the rational for having 2-4 vendors to select from
allows Postal organizations the ability to select the provider that best satisfies
their specific requirements.

We have outlined a draft plan and timeline to have this procurement in place
and available for postal use.

1.	 Begin data gathering from Postal organizations of cellular requirements and
    projected quantities 5/14.

2.	 Create first draft of SOW for USPS cellular requirements 5/28.

3.	 Meeting with Procurement to discuss SOW and procurement process 6/1.

4.	 Publish RFC for Cellular service in CBD 6/18.

5. 	 Review vendor comments and revise SOW if required 6/25.

6.	 Advertise SOW as RFP in CBD 7/6.

7.	 Proposals due from vendors by 8/3.

8.	 Review and selection of vendors 8/30.

9.	 Award of contract 9/13.




                                                                           Appendix 1
                                             12
                                   Restricted Information
